No. 19A-____

IN THE

Supreme Court of the United States
THOMAS S. BELL,

Petitioner,

v.
COMMONWEALTH OF PENNSYLVANIA.
APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI
To the Honorable Samuel A. Alito, Jr.,
Associate Justice of the United States Supreme Court
and Circuit Justice for the Third Circuit

JEAN GALBRAITH
UNIVERSITY OF PENNSYLVANIA LAW SCHOOL
Appellate Advocacy Clinic
Gittis Center for Clinical Legal Studies
3501 Sansom Street
Philadelphia, PA 19104
(215) 746-7824

ILANA H. EISENSTEIN

Counsel of Record

DLA PIPER LLP (US)
One Liberty Place
1650 Market St., Suite 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein@dlapiper.com

Counsel for Petitioner

APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI
To the Honorable Samuel A. Alito, Jr., Associate Justice of the United
States Supreme Court and Circuit Justice for the Third Circuit:
Applicant-Defendant Thomas S. Bell respectfully requests an extension of
time of sixty days within which to file a petition for writ of certiorari. Sup. Ct. R.
13.5. On July 17, 2019, the Pennsylvania Supreme Court issued its opinion,
concluding that, under the Fourth Amendment to the United States Constitution,
a driver’s refusal to consent to warrantless blood testing may be used as conclusive
evidence of guilt in a driving-under-the-influence prosecution. See Appendix,
Attachment A.
Mr. Bell’s petition is currently due on October 15, 2019. See Sup. Ct. R.
13.1. For good cause, Mr. Bell asks that this deadline be extended to be filed on
or before December 13, 2019.
1. Mr. Bell intends to file a petition for a writ of certiorari seeking review
of the Pennsylvania Supreme Court’s order affirming his judgment of conviction.
The jurisdiction of this Court will be invoked under 28 U.S.C. § 1257.
2. This application is timely because it has been filed more than ten days
prior to the date on which the time for filing the petition is to expire.
3. This case presents a substantial and important constitutional question:
Whether the Fourth Amendment permits the government to use an individual’s

1

refusal to consent to a warrantless blood test as dispositive evidence of his guilt
in a subsequent criminal prosecution for driving under the influence (“DUI”).
4. Under Pennsylvania law, the Commonwealth is permitted in a criminal
prosecution to introduce evidence at trial that the defendant charged with DUI
exercised its constitutional right to refuse to submit to a blood test. 75 Pa. C.S.
§ 1547(e); see Appendix, Attachment A at 1 n.1.
5. Although the Fourth Amendment generally permits the imposition of
certain “civil penalties and evidentiary consequences on motorists who refuse to
comply,” it prohibits statutory implied-consent regimes under which a motorist is
“deemed to have consented to submit to a blood test on pain of committing a

criminal offense.” Birchfield v. North Dakota, 136 S. Ct. 2160, 2186 (2016)
(emphasis added).
6. In the aftermath of Birchfield, open questions remain regarding the
extent to which the Fourth Amendment to the United States Constitution forbids
the government from converting a purported “evidentiary consequence” for
refusing to consent to a blood test into an impermissible criminal penalty.
7. This case is an ideal vehicle for resolving that question because, relying
on 75 Pa. C.S. § 1547(e), the Commonwealth used Mr. Bell’s refusal to consent to
a blood test as dispositive evidence of his guilt at trial.
8. Following his conviction, the trial court granted Mr. Bell a new trial,
concluding that Birchfield, 136 S. Ct. 2160, precludes states from penalizing DUI

2

defendants for refusing to submit to warrantless blood testing. Appendix,
Attachment A at 3. The Commonwealth of Pennsylvania filed an interlocutory
appeal, and the Pennsylvania Supreme Court ultimately concluded—over the
lengthy and persuasive dissent of two Justices—that the U.S. Constitution and
this Court’s precedent permit a criminal conviction to rely on a driver’s refusal to
consent to a warrantless blood search. See Appendix, Attachments A & B.
9. Mr. Bell seeks to challenge this ruling on Fourth Amendment grounds.
The constitutional issue he intends to raise in his petition for writ of certiorari has
implications for motorists across the country and, indeed, any citizen asserting his
or her right to refuse to consent to a warrantless search.
10. Further increasing the need for a thoughtful and well-reasoned petition
for a writ of certiorari is the fact that the highest courts in Colorado and Vermont
are in accord with the Pennsylvania Supreme Court’s decision. Fitzgerald v.

People, 394 P.3d 671, cert. denied sub nom. Fitzgerald v. Colorado, 138 S. Ct. 237
(Colo. 2017); State v. Rajda, 196 A.3d 1108 (Vt. 2018), reargument denied (Sept.
4, 2018). Notwithstanding these decisions, significant room for disagreement
exists regarding the extent to which the government may penalize the exercise of
the constitutionally recognized right to refuse a blood test without violating the
Fourth Amendment, as demonstrated by the two-Justice dissent from the
Pennsylvania Supreme Court’s decision affirming Mr. Bell’s conviction.
Appendix, Attachment B.

3

See

11. To properly brief these issues in a petition for writ of certiorari, Mr.
Bell respectfully requests an extension of his deadline to file the petition until
December 13, 2019, which falls within sixty days of the original due date. Good
cause exists for the request. See Sup. Ct. R. 13.5.
12. Mr. Bell has only recently retained the assistance of new counsel,
Professors Jean Galbraith and Ilana Eisenstein of the University of Pennsylvania
Law School’s Appellate Advocacy Clinic, for purposes of seeking this Court’s
review.
13. The requested extension is needed for undersigned counsel and other
members of the Clinic to fully familiarize themselves with the trial record, the
decisions below, and the relevant case law, and to prepare the petition for writ of
certiorari.
14. In light of the Clinic’s many other obligations and academic calendar
schedule, the Clinic would have difficulty completing those tasks by the current
due date in mid-October.
15. In addition, Ms. Eisenstein is a private practitioner with substantial
professional obligations in the coming months, including serving as counsel at a
two-week trial in a complex multi-district case beginning September 16, 2019.
16. Counsel for Mr. Bell has conferred with counsel for the Commonwealth,
Kenneth A. Osokow, District Attorney of Lycoming County, Pennsylvania, who
has advised that the Commonwealth does not oppose this requested extension.

4

17. This is Mr. Bell’s first request for an extension of the deadline to file a
petition for writ of certiorari.
18. For these reasons, Mr. Bell respectfully requests that the due date for
his petition for a writ of certiorari be extended to and including December 13, 2019.
Respectfully submitted,
JEAN GALBRAITH
UNIVERSITY OF PENNSYLVANIA LAW SCHOOL
Appellate Advocacy Clinic
Gittis Center for Clinical Legal Studies
3501 Sansom Street
Philadelphia, PA 19104
(215) 746-7824

SEPTEMBER 20, 2019

5

ILANA H. EISENSTEIN

Counsel of Record

DLA PIPER LLP (US)
One Liberty Place
1650 Market St., Suite 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein@dlapiper.com

